BECKER GALLAGHER
Briefs

and

Supreme Court of the United States
United States Courts of Appeals

Records

CERTIFICATE OF SERVICE
I, Emily Mullins, hereby certify that 1 copy of the
foregoing Brief in Opposition for Respondent City of
San Jose in 20-1755, Dean Hotop, et al. v. City of San
Jose, a municipal corporation, was sent via Next Day
Service to the U.S. Supreme Court, and 3 copies were
sent via Next Day and email service to the following
parties listed below, this 30th day of August 2021:
Frank Alan Weiser
Attorney at Law
Suite 1212
3460 Wilshire Boulevard
Los Angeles, CA 90010-0000
(213) 384-6964
maimons@aol.com
Counsel for Petitioners
Nora Frimann
Ardell Johnson
Malgorzata Laskowska
Counsel of Record
Office of the City Attorney
200 East Santa Clara Street
16th Floor
San Jose, CA 95113-1905
(408) 535-1900
cao.main@sanjoseca.gov
Counsel for Respondent

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on August 30, 2021.

Emily Mullins
Becker Gallagher Legal Publishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001

Subscribed and sworn to before me by the said
Affiant on the date below designated.
Date:

~il·ty Mr S

cleft, i(/ .

Notary Public

Jl

Oll

':J/

{y,_4df--

[seal]

JOHN D. GALLAGHER
Notary Public, State of Ohio
My Commission Expires
'ebruary 14, 2023

